No: 20-5904
IN THE
SUPREME COURT OF THE UNITED STATES
TARAHRICK TERRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX
__________________
Pursuant to Rule 26.8 of this Court, Petitioner respectfully seeks leave to
dispense with the requirement of a joint appendix in this case. Petitioner is
authorized to state that counsel for the United States agrees that a joint appendix is
unnecessary.
The question presented is whether pre-August 3, 2010 crack offenders
sentenced under 21 U.S.C. § 841(b)(1)(C) have a “covered offense” under Section 404
of the First Step Act of 2018. The opinion of the United States Court of Appeals for
the Eleventh Circuit and the opinion of the United States District Court for the
Southern District of Florida are included in the appendix to the petition for a writ of
certiorari.
The parties do not believe that any other portion of the record merits special
attention that warrants the preparation and expense of a joint appendix.
Accordingly, a separate joint appendix would not materially assist in the Court’s
consideration of the case.

1

For the foregoing reasons, Petitioner respectfully requests that the motion to
dispense with the requirement of a joint appendix be granted.
Respectfully submitted,
MICHAEL CARUSO
Federal Public Defender
Ft. Lauderdale, Florida
January 28, 2021

/s/ Andrew L. Adler
Andrew L. Adler
Counsel of Record
Assistant Federal Public Defender
1 E. Broward Blvd., Suite 1100
Ft. Lauderdale, FL 33301
(954) 356-7436

2

